             OFFICE OF
             INSPECTOR GENERAL
             U.S. DEPARTMENT OF THE INTERIOR


                                                                                          September 18,2013
Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Management

From:         Michael P. Colombo        a~u.J!.__{J ~
              Western Regional Manager for Audits, Inspections, and Evaluations

Subject:      Verification Review- Recommendations for the Inspection Report, "Musewn
              Collections: Preservation and Protection Issues with Collections Maintained by
              the National Park Service" (C-IS-NPS-0008-2010, January 2010)
              Report No. WR-VS-NPS-0014-2013 ,

        The U.S. Department of the Interior Office oflnspector General (OIG) has completed a
verification review of the two recommendations presented in the subject inspection report. Our
objective was to determine whether the National Park Service (NPS) implemented the
recommendations as reported to the Office of Financial Management (PFM), Office of Policy,
Management and Budget. PFM reported to OIG when NPS had addressed and provided
supporting information for the two recommendations in the subject report. As a result, the
recommendations were closed on November 18, 2010. Based on our verification, we consider
both recommendations resolved and implemented.

Background

        Our January 2010 inspection report, "Museum Collections: Preservation and Protection
Issues with Collections Maintained by the National Park Service," contained two
recommendations relating to correcting and/or mitigating, to the greatest extent possible, all
deficiencies identified at 17 NPS sites and inspecting all remaining NPS sites that house museum
collections.

       On March 15,2010, OIG referred the recommendations to PFM for tracking and
implementation. In a memorandum dated March 18, 20 10, NPS concurred with OIG's
recommendations. On May 13, 2010, NPS followed up their initial response to OIG's report with
a memorandum detailing the actions they had already taken on both recommendations and
information on what they planned to accomplish in the near future. PFM reported in a
November 18, 2010 memorandum that upon reviewing documentation submitted by NPS, PFM
determined that NPS had met the intent of Recommendations 1 and 2 and considered them
implemented and closed.




                        Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

      The scope of this review was limited to determining whether NPS took action to
implement our recommendations. To accomplish our objective, we reviewed the supporting
documentation that NPS officials provided and discussed actions taken relating to the two
recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether NPS had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

        Our current review found that NPS has implemented Recommendations 1 and 2.

        Recommendation 1: Correct and/or mitigate, to the greatest extent possible, all
        identified deficiencies at the I 7 sites identified in this report.

         Action Taken: In its May 2010 response to our inspection report, NPS provided a report
that listed all of the deficiencies that we identified at the 17 parks we inspected. For each
identified deficiency, NPS noted whether it had been corrected, mitigated, or resolved, or if
resolution of the deficiency was dependent on funding. NPS reported that 56 percent of the 200
deficiencies cited had been resolved or mitigated and 44 percent were dependent on funding.

        At our request, NPS updated the report to 2013 and created another schedule summing
the deficiencies that it has corrected, mitigated, or resolved. Based on the updated information
provided by NPS, it appears that approximately 69 percent of the original deficiencies have been
corrected and that resolution of the remaining deficiencies is dependent on the availability of
funding.

        Based on the information provided, we concluded that NPS is correcting and/or
mitigating, to the greatest extent possible, the deficiencies identified at the 17 sites we inspected.
We, therefore, consider this recommendation implemented.

       Recommendation 2: Inspect all remaining NPS sites that house museum collections and
       correct and/or mitigate, to the greatest extent possible, all identified deficiencies.

        Action Taken: In its May 2010 response to our inspection report, NPS stated that
inspection data is collected annually and that NPS has set a Government Performance and
Results Act goal of increasing average scores Bureauwide by at least I percent per year. NPS
also reported that in 2009, 321 park sites held museum collections. NPS provided a list of all
parks and the percent of applicable museum standards met at each park as of the 2009 inspection.
According to NPS, 69 percent of its parks scored in the good range, meeting 70 percent or more


                                                  2
of applicable standards; 23 percent of parks scored in the fair range, meeting between 50 percent
and 70 percent of applicable standards; and 8 percent of parks scored in the poor range, meeting
less than 50 percent of applicable standards.

        In its 2012 report on park deficiencies, NPS listed a total of 283 parks that served as a
storage repository for the museum artwork and artifacts. We analyzed the data in this report and
determined that 82 percent of the repository sites scored in the good range, 16 percent of the
repository sites scored in the fair range, and 2 percent of the repository sites scored in the poor
range.

        Based on the progress NPS has made, we concluded that NPS is correcting and/or
mitigating, to the greatest extent possible, the deficiencies identified at all of the remaining sites
that house museum collections. We, therefore, consider this recommendation implemented.

Conclusion

       We informed NPS officials of the results of this review at an exit conference on
July 19, 2013. NPS officials concurred with our findings.

       If you have any questions about this report, please contact me at 916-978-5653.

cc:    Jonathan B. Jarvis, Director, National Park Service
       Nancy Thomas, Liaison Officer, Office of Financial Management
       Sharon J. Blake, Liaison Officer, Office of Financial Management
       Vera Washington, Liaison Officer, National Park Service




                                                   3
